fa

C@OCKLE

; E-Mail Address:
a
Le & | Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-631

WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
Petitioners,

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE PUBLIC CITIZEN AND PUBLIC
CITIZEN FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following: .

SEE ATTACHED

To be filed for:
SCOTT L. NELSON
Counsel of Record
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
snelson@citizen.org

Attorneys for Amici Curiae

Subscribed and sworn to before me this 2nd day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

ere Kevee 0. Liao Qndhao bl. Ole

Notary Pu

‘My Comm. Exp. September 5, 2023

 

 

Affiant 39543
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States

United States Department of Justice

Room 5616

950 Pennsylvania Avenue NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOI.gov

202-514-2217

Counsel of Record for Petitioners William P. Barr,
Attorney General, et al.

Roman Martinez

Latham & Watkins, LLP

555 Eleventh Street NW

Washington, DC 20004

roman.martinez@lw.com

202-637-3377

Counsel of Record for Respondents American Association of
Political Consultants, Inc., et al.
